No.

%D'l5%0

SUPREME COURT OF THE UNITED STATES
Shenglin R Chen / Chaohua Chen(mother and son)

Petitioners
vs.

FILED

Alvin Turner /Jeannette Tumer(husband and wi e)

Pesyrnfents

^ j 2021

OFFICE OF THE CLERK
WiiPRFME COURT, U.S._

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the fourth Circuit

PETITION FOR A WRIT OF CERTIORARI
Plaintiffs /Respondents:
Alvin TURNER
Jeannette TURNER
(Wrong party .quit dated
Jan 13 2020)

Petitioners:
Shenglin R CHEN
Chaohua CHEN
slincehn@yahoo.com
6207 Central Ave ,
Capitol Heights MD 20743
240-938-4140

APR 3 0 ?fl?1
OFFICE OF THE CLERK f
SUPREME COURT. U.S. I

RECEIVED
APR - 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U S

RECEIVED
MAR 1 5 2021
1

QUESTION PRESENTED
•

•

*Case type: Forest fire/*

In Turner V. Chen CAE 1822460, Due the Court of Prince George County

violation operations from wrong register, used wrong plaintiff name*, Judge barred
petitioners from entry any evidence or testimony in defense this complaint, ordered
petitioners to pay wrong party' attorney fee, set this case up as unilateral hearing,
forced blocked petitioners via EMS exit -the right of way entry owned house,
misapplication the law of trespassing. The COSA/ COA(the United States Court
of Appeals-Fourth Circuit dismissed petitioner' appeal, denied petitioners' Motion
for remove the roadblocks from fire exit(denied :March 1. 2021)without hearing,
one judge decided all, violated the < Bill of Rights> 1st 10 Amendments.
Question 1. Is freedom of speech protected by the First Amendment?
Question 2. Whether complied/ substantially complied the equal rights?
Question 3: Why is it Important to Keep Emergency Exits Clear?

*Respondenls ALVIN TURNER sold 401 Yolanda Ave property to 401 Yolanda Axe LLC on Jun 11.2018 public
record dated on Jul 16 2018, this case filed on Jun 28.2018 with fraud(Exhibit Cl-8), due the judge doesn't care
about who, when ,what, where and how, Petitioners tried the best we can filed 38 motions to explain what's wrong
with the case and all denied, till today have not correct, according to law ,the judge in COSA , COA should dismiss
this complaint, because plaintiffTurner quit this case Jan 13.2020, and blocked petitioners' exit, there's no reason
dismissed petitioners' appeal by tampered this case' basic fact /legal documents, knowingly made a false statement
.** On Jan 7-8 2020 'court days, Petitioners' 9 International witnesses,3 high quality experts and more than 200
evidences not allowed show up, witnesses and experts have to canceled the tickets.

2

1

TABLE OF CONTENTS
pages
TABLE OF CONTENTS

3

TABLE OF AUTHORITIES

4

PETITION FOR A WRIT OF CERTIORARI

6

OPINIONS BELOW

6

STATEMENT OF JURISDICTION

6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

7

STETMENT OF THE

8

*

FACT

A. PETITIONERS BURNT OUT PROPERTY

A1-4

B. BLOCKED FIRE EXIT OF PETITIONERS'

Bl-10
Cl-3

C. FAMILY BROKEN AND GO AHEAD NO WAY
REASONS FOR GRANTING THE WRIT

11

A.THE FOURTH CIRCUI' DECISION HAS INVALIDATED FDERAL LAW.

12

B.INVOLING A SPLIT DECISION INSIDE COURT

12

C.THIS COURT WILL PROVIDE URGENTLY NEEDED GUIDANCE,

14

D. KEEP FIRE EXIT CLEARAND AND SAVE PEOPLE OUT OF THE FIRE

13

CONCLUSION

15

APPENDIX INDEX

16

A. The opinion of the United States Court of Appeals for the Fourth Circuit appended.... al-3.
The Order of the Court Of Appeals of MD denying the petition for review...........appended
B. The opinion of the United States District Court appended.

.bl-2

C. The Order from Circuit Court of P.G county appended.....

.... infra .Appl-6

D. The Order from Court of Special Appeals appended.......

infra, App.7-12

The Decision of the Maryland Court Of Special Appeals

........appended

E. Lower Court' Judgments were Inconsistent
Conflict - INTERLOCUTORY APPEAL Order dated: Dec 23.2019 docket # 062.... {infra, A-6)
3

*

(Exhibit -infra, A-12)

V. Order dated May 11.2020 dismissing order.
Process Conflict: Order dated March 16.2020 -Scheduling Order,

(appendix index)

V. March 17.2020 (false ) changed within 24 hours
(No exhibit due this mail have never mail out, witness from mailwoman-infra, A-6)
Conflict between Judge V front desk' of COSA.

10 mails proofed the Conflict

Fact and time' Conflict: from 3days changed 32days by judge
infra,

(Certified mail # 70120470000242252716 www.informeddelivery.com
App.13-16 exhibit-see appendix
F. The Orders from the Fourth Circuit are attached infra, App.17-19

appendix infra,app. 20

G. Statement of Jurisdiction

17

PROOF OF SERVICE

TABLE OF AUTHORITIES
FEDERAL CASES
DOWNEY v. SHARP Vol., 2011 Supp.

§ 3-201 et seq. of the Courts and Judicial Proceedings Article. More specifically,
the issue is whether the Court of Special Appeals erred when it vacated the award,
overturned the arbitrator's denial of an easement, and directed that an easement by
necessity be located over the petitioners’ land.

4

No. 19 Sept. Term, 2011.Decided: August 23,2012
Bell, C.J., Harrell, Battaglia, Greene, Adkins, Barbera, and John N C. Eldridge
(Retired, Specially Assigned), JJ
This case concerns an arbitration award under the Maryland Uniform
Arbitration Act, Maryland Code (2006 Repl. Vol., 2011 Supp.),
Dec, 2018

https ://casetext. com

Firefighters were able to contain six large fires, two in California and one
each in Alabama,...
Flash flooding and debris flows near bum scars remain possible....
2020(1/1/20-1/29/20), Fires: 1,098, Acres: 16,767.
U.S. federal fire and forest policy: emphasizing resilience in dry forests

DOCKETED CASES
Mar 24, 2011 - David C. Lennhoff, MAI, SRA, AI-GRS, Damestown, Maryland.
Mark R. Linne, MAI,
After a bench trial, the court awarded, the court reversed the opinion of
the appellate court and ... The trial court granted the appraiser's motion for

summary ... the easement's necessity is “so clear and absolute.
CONSTITUTIONAL PROVISIONS
1

U.S. Constitution amendment
FEDERAL STATUTES
Real Estate Deed-Deeds.comwww.deeds.com > real-estate-deed.
In short, when real estate is sold or given to someone, it is done with a deed.
Real Estate Law -Exit options
Maryland Transportation Section

§

21-1003,

Fire Laws of Maryland §
U.S. federal fire and forest policy: emphasizing resilience in dry forests
PETITION FOR A WRIT OF CERTIORARI
Petitioners Chen (mother and son), respectfully petition this Court for a writ
of certiorari to review that unreasonable judgments from P.G County and fourth
Circuit Court of Appeals rejecting appeals allegations of < Bill of Rights> the 1st
10 Amendment violations, racism and prejudice.

6

OPINIONS BELOW
The published opinion of the United States Court of Appeals for the
Fourth Circuit and COSA dismissing petitions appeal is reported at
http://casesearch.courts.state.md.us/casesearch/inquiryDetail.jis?caseId=CAE
1822460&loc=65&detailLoc=PGV and is attached infra, App.

STATEMENT OF JURISDICTION
The Fourth Circuit’s issued its decision affirming the COSA’s denial of
a dismissing on Dec 28.2020. This petition is timely. This Court has jurisdiction
under 28 U.S.C. § 1254(1). and

28 U.S.C. Section 1331 (federal question)

This case was an INTERLOCUTORY APPEAL , On Dec 31, 2019, Order to
Proceed WO Pre Conf -ordered to transfer the case to COSA by Chief judge of
COSA (Exhibit I, Docket 062) .According to law, the lower court can not
dismissing the case.
Petitioners are seeking review the decision of Maryland Court of Special
Appeals, for which review was denied in the Maryland Court of Appeals.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The 1st Amendment to the United states Constitution:"Freedom of religion,
speech, press, assembly, and petition., the 5th Amendment:"Right to due process of
law;" the 6th Amendment:"Rights of accused persons, e.g., right to a speedy and
public trial;" the 7th Amendment:"Right of trial by jury in civil cases". 14th
Amendment <bill of rights>
Title 42, section 1983, of the United States Code: “Every person who, under
color of any statute, ordinance, regulation, custom, or usage, of any State or

Territory or the District of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and
laws, shall be liable to the party injured in an action at law, suit in equity, or other
proper proceeding for redress.”
STATEMENT OF THE FACT
A. PETITIONERS BURNT OUT PROPERTY

EXHIBIT .Al-4

Petitioners owned a Single Family House located 6207 Central Ave, Capitol
Heights MD ,20743 , this property' right of way is 75ft away to Yolanda Ave, more
particularly described as the N 84’03'00" E, Parcel 84 11.550 SF, N 790 33
10”, 174.50 (Exhibit-property line and site plan from P.G county gov)
Petitioners have been accessible via the 10 ft 'exit (lot 43 )the adjacent
Yolanda Ave, It’s an existing EMS gravel exit that used by utilities companies ,
petitioners, and EMS exit since 1978,it rebuild/repair by petitioners 6 years ago ,
petitioners have been maintenance it every year , it is 30' distance away from
neighbor 401 Yolanda Ave LLC' front gates and fence, this is only exit to nearest
public road of petitioners., (Exhibits the deed 39981 and 41138 of 401 Yolanda
Ave, Capitol Heights MD ,the evidence from land record of Circuit Court in P.G.

County with stamp of the notary office—Legal description), there's another
easement owned by church about 1.5ft by .3 miles ’ dirt path through a forest can
walk/ bicycle to petitioners’ house.
On Jan 2018, Because the respondent Mr. and Mrs. Turner *** want to
purchase Petitioners Chen ' property ,after denied by Chen , respondent hired an
attorney who have long term relationship with Judges in P.G County, their attorney
said "two choose , one is sell 6207 property to my client Turner or you will lose
much more than your house(Exhibit -the email of petitioners' ex-lawyer), first
block your exit, then.... ".
On Jan 19.2018

Respondent Mr. Turner towed petitioners’ 4 large gates

from Petitioners Chen' inside yard without notice and permit(Exhibit G1-G10) till
today have not return it back.
On April 10, 2019 Petitioners’ house suddenly caught a fire(crown fire) , fire
department' trucks were unable to access that 1.5 ' by 0 .3 miles dirt road easement
to petitioners' house, about 30 fire trucks and 100 firefighters went to the Yolanda
Ave with petitioners' EMS exit enter 6207 property to provide critical relief to the
raging fire on 6207 5 property(Fire case#19-04100000167) because the delayed,
petitioners lost all property , left with nothing after the fire , hundreds of thousands

of property turned into ashes in just a few hours, Mrs. Shengliri mother passed
away on August 16, 2019, Petitioner Mr.Chaohua (son) was in Med Star
Washington Hospital Center Bum Center after receiving severe 2nd and 3rd degree
bums on the hands and arms, has undergone extensive skin grafting surgery and
still in the hospital (Exhibit C 1-7)
On Nov 1, 2019 , the Judge William Snoddy in P.G County barred petitioners
from entering any evidence or testimony in defense of this complaint;( Docket 042),
and set this case up as unilateral hearing, ordered that the petitioners are directed to
pay the sum of Five Hundred Dollars ($500.00) to respondent in attorney's fees
(Docket 043, Exhibit B)
B. BLOCKED FIRE EXIT OF PETITIONERS’

EXHIBIT..... Bl-10

On Jan 10,2020, the Judge of P.G. County John P ,Davey ordered Petitioners
trespassed, without review the 401 deed, (third paragraph)
On Nov 23, 2019 , Petitioners filed an INTERLOCUTORY APPEAL to
COSA.
On Dec 31, 2019, Order to Proceed WO Pre Conf -ordered to transfer the
case to COSA within 60 d ( Exhibit I, Docket 062)

C. FAMILY BROKEN AND GO AHEAD NO WAY
On Jan 13,. 2020, the respondent forcible detainer petitioners exit ,set

10

Cl-3

roadblock up on EMS exit, there's 2 telephone pole#: 828382-1461;
828382-1453

blocked by respondent too. (E. 3)

, Petitioners No power, water,

and gas; mailman can't direct deliver mails ,the WSSC, Pepco. Verizon staff find
no way in . Petitioners family broken and desperate , go ahead no way!
On Feb,21 2020 Petitioners' case moved to COSA by the order on Dec 31,
2019'(Exhibit)
On March 16, 2020 Petitioners got a Scheduling order , scheduled court day
around Dec 1-10 2020( Exhibit A);
On May 11,2020 this case immediate dismissed for failure to respond March
17, 2020 Order to Show Cause.( Exhibit F-Docket #077)
Due March 17, 2020 no mail come from COSA -(Witness from the mailwoman
in 6089 Central Ave ,Capitol Heights, Post Office, 20743)
On May 15.2020 Petitioners proofed the mistake and asked the court double
check, correct,reconsider (Exhibit D within 3 days- attached the receipt of
Certified mail and online checked the delivered information).
Petitioners filed " Motion for remove the roadblock from Petitioners' fire road
"over 10 times , the first motion filed within 3 days by Certified inail( see the
evidence) following the entry order of dismissal, second motion filed dated May
28 , then Jun 12, July 10, Aug 30 , Oct 2.2020. last one filed check# 1447 on Jan
10 202land denied by Mar 1 .2021.

li

Petitioners have no delayed, why 3 days became 32 days ,(May 15.2020 to
Jun 17.2020 ), but the judge can't changed the stamp on the paper and post office
delivered information ,the COSA front desk clerk' mails can proof, there's 10
records from the front clerk and judge inner conflicted included :legal procedure,
legal docs, procedure fact are wrong. ( Exhibit C)
From May 11 2020 to now, Petitioners asked the COURT "Where is the March
17 ,2020's dismissal come from ? Who made it ? why petitioner can't have a copy ?
During the 3 years, judgments disorder,inside programming are conflict
with each other, order sent out then invalid within 1 days .

REASONS FOR GRANTING THE WRIT OF CERTIORARI
A.THE FOURTH CIRCUI' DECISION HAS INVALIDATED FDERAL LAW
This case have 108 violation operations, the Fourth Circuit' decision has
invalidated ten federal law(Federal Fire Prevention and Control Act, Real Estate
Law, Traffic Laws-road symbol signs - FHWA MUTCD etc.)
B.INVOLING A SPLIT DECISION INSIDE COURT
This case involving a split decision in COSA(Exhibit 7-10) contradictory
judgments , with wrong reason, time and fact, there's question of law, procedure
incorrect.

**there's a dirt road 1.5' by .3 miles easement owned by church with forest can walk to Petitioners property,no
wide enough for vehicle or fire trucks in
*** Turner is ex-owner of 401 Yolanda Ave, Capitol Heights MD 20743 , He sold his house on Jul 16.2018.

12

Petitioners did everything by lower court requested ,waiting for long time
Petitioner mailed all documents to Respondent /ex-counsel (Exhibit G), by lower
courts' requested, since Respondent Turner sold the property to 401 Yolanda Ave
LLC, quit this case on Jan 13 .2020 , According to law, Petitioners have the rights
to win the case .this is only exit for Petitioners’, without the exit,petitioners can’t
live with, and 401 Yolanda Ave LLC. have 3 exits to public road (Yolanda Ave,
Elder St. Hanlon St. Exhibit- attached the Map of public road in this area)
As property taxpayer have raised legal challenges for blocked EMS exit to
the owned house from court, First, the lower courts have treated petitioner as a
shield, protecting state execution illegal protocols against any challenge.
This has enabled the states to engage in unconstrained judgments , changed
this case basic fact 5 W by judge, heedless of evidence, no allowed petitioners' say
or show anything, no witness ,and without any need to show that the truth whether
is in the service of creating more humane trial.
Second, the lower courts have simultaneously treated petitioner-as a sword,
knocking down challenges to the order’s unconstitutionality whenever the state
claims it cannot obtain any other exit, without any hearing inquiry into the

13

constitutionality of the chosen formula.
Well know, the fire department have been noticed to everyone in this area
with sign on each comer -— 24 hours open this emergency exit, if there’s an
ambulance /the.3 miles' forest fire ,gas, electric explode, the entire area will be
speedily covered with fire.
In 2019, local fire departments responded to an estimated 1.3 million fires.
These fires caused roughly 3,700 civilian fire deaths and 16,600 reported civilian
fire injuries. Property damage was estimated at $14.8 billion.
by reviewing Court in order to resolve a circuit split decision, the result of
this design is a Court that prioritizes case selections that will enable them to enforce
the uniformity of federal law throughout the country, this Court should take the
opportunity this case presents to resolve the conflict.
Petitioners' burnt out house needs to repair and rebuilding , the
mildew-growing everywhere, dirty water cause lot deer died inside forest. the
utilities services find no way in , mails can’t direct deliver,electricity, water and gas
needs to repair and rebuild, contractors unable to move the building materials in ,

14

petitioners ' life situation are more worse than jail.
C.THIS COURT WILL PROVIDE URGENTLY NEEDED GUIDANCE
By granting review in this case, this Court will provide urgently needed
guidance, both to local judges seeking safety exit to challenge the states’ shook off
the taint of corruption , and to the courts charged with reviewing such claims.
Rulings without fact evidence, malicious abuse of, process obstruction ofjustice,
falsifying court documents case will be go low.
D. KEEP FIRE EXITS CLEARAND AND SAVE PEOPLEOUT OF THE FIRE
All over the world, Nobody have the rights to block an emergency exit,.
especial after fire, from ancient times to the present, never heard about trespassing
for used a fire exit, most time the government will try any way to save people,
fireman / rescue team went all out to save the people out of the fire, Petitioners
strongly believe in and respect the U.S. of American Judicial system.
Forest fire can happen anytime again, reducing fire risk is more important
than helped fire crews get a jump on the blaze, the lower court' order
unconstitutional is an issue of national importance.

15

An emergency exit is a clear, safe way to get out of a building. It provides
fast exit in case of emergency, keeping exit passageways clear of obstacles enables
people to exit a building more quickly and safely, that's the reason why must be
keep emergency exits clear.

CONCLUSION
Hopefully this court review and reconsider this case , allow petitioners, witness show the
fact and irrefutable evidences, save people from fire and water, remove roadblocks from the fire
exit ASAP. For the reasons stated in the Petition ,this Court should grant the writ of certiorari
e Court of Appeals for the fourth Circuit.

and, on review, reverse the decision

\

Respectfully submitted:

MarlO

Ihenglin Ch<

/Chao]

r

1

len

hicehn@yahoo.-com
6207 Central Ave, Capitol Heights^/MD 207
240-938-414.0

.0

/

16

Court of appeals!

Lauren M. Vint
Chief Deputy

of iHarplanb
Robert C. jffllurpljp Courts of Appeal Puilbutg
361 3&otoe Poulebarb
Sttnapolte, jfflarplanb 21401-1699

Marie Y. Randall
Doneice Burnette
Rachael Spicknall
Kisha Taylor-Wallace
Allison Gray
Deputies
Sara Rice
Senior Recorder

410-260-1500

Suzanne C. Johnson
Clerk

l -800-926-2583

Sandra Belt
Administrative Support

March 9,2021
Shenglin Chen
Chaohiia Chen
6207 Old Central Ave.
Capitol Heights, MD 20743
*

Re:

Shenglin R. Chen, et al v. Alvin Turner, et al
Petition Docket No. 325, September Term, 2020

Dear Petitioners:
I am in receipt of your “EMS for Motion for reconsideration Petitioners’ motion for
remove roadblocks of the fire exit,” dated February 26,2021, in the above-captioned case.
Please be advised your petition for writ of certiorari was dismissed on December
21, 2020, your motion for reconsideration was denied on March 1,2021, and your case in
this Court is closed.
•r

Sincerely,
1

-V*

:>

SCJ:rls
(K.

TTY FOR DEAF: 4I0-260-I554

